           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



       ASSESSMENT OF THE
     ENUMERATION AT ENTRY
            PROCESS

     March 2005   A-08-04-14093




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY

MEMORANDUM


Date:   March 15, 2005                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Assessment of the Enumeration at Entry Process (A-08-04-14093)



        OBJECTIVE
        The objective of our review was to assess the effectiveness of the Social Security
        Administration’s (SSA) Enumeration at Entry (EAE) process.

        BACKGROUND
        SSA entered into agreements with the Departments of State (State) and Immigration
        and Naturalization Service,1 in 1996 and 2000, respectively, to assist SSA in assigning
        Social Security numbers (SSN) to certain classes of immigrants.2 SSA’s goal in
        implementing the EAE process was to reduce the possible acceptance of counterfeit
        immigration documents by SSA personnel and eliminate duplicate contacts immigrants
        must make with Federal agencies. In October 2002, State and the Department of
        Homeland Security (DHS) began assisting SSA by collecting data needed for SSN
        assignment as part of the immigration process.

        Currently, SSA only allows immigrants who are lawfully admitted as permanent
        residents (LAPR) and age 18 or older to voluntarily apply for an SSN through EAE.3 By
        choosing to participate in EAE, LAPRs do not complete SSA’s Form SS-5, Application




        1
          On March 1, 2003, the responsibility for providing immigration-related services and benefits was
        transferred from the Immigration and Naturalization Service to the U.S. Citizenship and Immigration
        Services, a bureau of the Department of Homeland Security (DHS).
        2
            We use the term “immigrant” to refer to those individuals DHS admitted as permanent residents.
        3
            SSA Program Operations Manual System (POMS), section RM 00202.315.
Page 2 - The Commissioner


for a Social Security Card. Instead, they apply for an original or replacement SSN card4
on State Form DS-230, Application for Immigrant Visa and Alien Registration. Once
DHS admits an LAPR into the United States, it electronically transmits to SSA certain
data elements needed for SSN assignment. Using these data, SSA's Modernized
Enumeration System (MES) processes the record, assigns an SSN to the LAPR, and
mails the SSN card to the address provided to State or DHS. Appendix B provides
flowcharts of the EAE process.

As of September 30, 2004, SSA had issued EAE participants over 101,000 SSN cards.5
According to SSA, in Fiscal Year (FY) 2004, it cost about $24 and $10 to process an
SSN application at an SSA field office (FO) and through EAE, respectively.

To accomplish our objective, we reviewed SSA policies and procedures for assigning
SSNs to LAPRs. In addition, we visited six FOs to observe staff processing immigrants’
SSN applications. We also reviewed 50 EAE records that MES could not process
(pending records) and discussed possible causes with FO management. To learn more
about State and DHS’ role in the EAE process, we visited two foreign service posts and
five U.S. ports of entry. We also identified a population of 10,752 EAE records for which
SSA assigned original SSNs from December 2003 through February 2004. From our
population, we randomly selected a sample of 250 records to determine whether SSA
assigned multiple SSNs to the same individual. We also reviewed EAE records for
accuracy and completeness. Appendix C includes a detailed description of our scope,
methodology and sample appraisal.

RESULTS OF REVIEW
We commend SSA for its EAE initiative and believe it has the potential to strengthen
SSN integrity and assist the Agency in delivering a higher quality of service to
immigrants. However, we identified weaknesses in existing controls and operations we
believe SSA needs to address to improve the efficiency and effectiveness of the EAE
process. We project SSA assigned about 1,161 multiple SSNs to immigrants who
received an SSN through EAE from December 2003 through February 2004. This
figure represents about 11 percent of the SSNs the Agency assigned to EAE applicants
during this period.6 In addition, we determined that MES could not process
27,383 (26 percent) EAE applications during FY 2004 because of data incompatibility
issues7 among SSA, State and DHS. Furthermore, EAE records did not always include

4
 Requests for SSN replacement cards through EAE generally occur when immigrants have previously
been in the United States under a temporary work visa and, during that stay, obtained an original SSN.
However, since that time, they may have misplaced their card or changed their name or immigration
status.
5
    SSA’s EAE counts are from November 2002 to September 30, 2004.
6
 We identified 27 (about 11 percent) instances in which SSA assigned multiple SSNs from our review of
250 sample records. We discussed each case with SSA personnel, and they agreed with our analysis.
7
    The electronic data State and DHS transmits to SSA does not always meet SSA’s data requirements.
Page 3 - The Commissioner


immigrants’ complete names or SSNs. Although the EAE process shows significant
promise, we believe SSA must resolve these weaknesses before the Agency expands
EAE to other classes of noncitizens.

SSA ASSIGNED MULTIPLE SSNs TO IMMIGRANTS

We project SSA assigned about 1,161 multiple SSNs to immigrants who received an
SSN through EAE during our 3-month audit period (see Appendix C, Table 1). This
amount represents about 11 percent of the 10,752 original SSNs the Agency assigned
to EAE applicants during this time. We believe SSA erroneously assigned these
immigrants more than one SSN because

•   SSA system edits did not identify previously assigned SSNs or multiple SSN
    applications, and

•   FO personnel improperly resolved enumeration feedback messages (EM).

The SSN has become one of the most important keys to social, legal and financial
assimilation in the United States. As such, we believe SSA has a responsibility to
ensure effective controls are in place to prevent improper SSN assignment. We believe
an 11-percent error rate is undesirable, and SSA must make immediate changes in its
EAE process. If SSA does not take a proactive role in addressing weaknesses in its
controls and operations, and all variables remain constant, we estimate SSA will assign
multiple SSNs to about 23,220 immigrants over the next 5 years.8 This is particularly
important given SSA’s interest in expanding EAE to other classes of noncitizens. We
discuss in greater detail below factors we believe contributed to multiple SSN
assignment.

System Edits Did Not Identify Duplicate Applications Processed on the Same
Date or Previously Assigned SSNs

We estimate SSA assigned about 903 (about 78 percent) of the projected 1,161 multiple
SSNs to immigrants because system edits did not identify (1) duplicate applications
submitted on the same date or (2) previously assigned SSNs (see Appendix C,
Estimate 1). When SSA’s MES processes each SSN application, the system runs an
“edit routine” to determine whether any duplicate applications were submitted on the
same date. In doing so, MES compares certain positions of the applicants’ first and last
names and dates of birth with other applications to be processed that day. However,
we identified instances in which duplicate applications were entered into MES on the
same date, but the matched records had variations in the applicant’s name or date of
birth. In one case, the EAE record had a double surname, while the FO-created record



8
 We based this estimate on the projected number of immigrants who received multiple SSNs during our
review, and projected it over the next 5 years. Therefore, we calculated our estimate as follows:
1,161 X 4 quarters X 5 years = 23,220.
Page 4 - The Commissioner


showed only one surname. We believe SSA needs to enhance its duplicate record
detection routine to provide greater assurance of identifying duplicate requests
submitted on the same day.

Once a record passes the duplicate record detection routine, MES searches its SSN
master file for SSNs the Agency may have previously assigned the applicant. During
the search, MES compares numerous data fields on the incoming SSN application with
the master file. However, we identified instances in which edits failed to identify SSNs
previously assigned to applicants because there was a variance in the applicant’s first
or last name or date of birth. In one case, the EAE record had a single first name, while
the FO-created record showed a compound first name. We believe SSA needs to
enhance its search routine to ensure previously assigned SSNs are identified.

FO Personnel Improperly Resolved Enumeration Feedback Messages

When the previously assigned SSN detection routine identifies a record on the SSN
master file containing applicant information similar to that shown on an incoming EAE
application, MES generates an EM and transmits it to the servicing FO for investigation
and resolution. SSA instructions require that FO personnel compare master file
information (name, date and place of birth, gender, alien status, parents' names) with
the corresponding data on the incoming EAE record to determine whether a match
exists.9 If FO personnel determine there is a previously assigned SSN, they should
record the master file SSN on the incoming EAE application, which will cause MES to
issue a replacement card. However, if FO personnel fail to do so, MES will assign an
original SSN.

We estimate SSA assigned about 258 (about 22 percent) of the projected 1,161 multiple
SSNs to immigrants because FO personnel improperly resolved EMs (see Appendix C,
Estimate 2). In almost all instances, immigrants’ first and last names and dates of birth
on the matched records were identical. While there were some variations in parents’
names, applicants’ genders or city of birth, there was enough information on the master
file and the incoming EAE application to clearly indicate the records belonged to the
same individual. SSA representatives reviewed these cases and agreed that each set
of records belonged to one individual. We believe FO personnel need to exercise
greater care when resolving EMs.

IMMIGRANTS APPLIED FOR SSNs THROUGH ENUMERATION AT ENTRY AND AT
FOs

One of EAE’s key features is that it allows immigrants to apply for an SSN as part of the
immigration process rather than requiring that they visit an SSA FO. However, we are
concerned that a number of immigrants apply for SSNs through EAE and at FOs. In
fact, many immigrants visit an FO within the first week of entering the country. SSA
personnel at five of the six FOs we visited told us that most immigrants who apply for
SSNs through EAE also apply at an FO. Our findings appear to support their concerns.
9
    Modernized Systems Operations Manual, section 303-A (EM-3).
Page 5 - The Commissioner


We estimate that about 645 (about 56 percent) of the projected 1,161 immigrants with
multiple SSNs visited an SSA FO within 1 week of entering the country (see
Appendix C, Estimate 3).10 Furthermore, our analysis of 50 EAE records that MES
could not process (pending records) showed that 30 (60 percent) immigrants obtained
an SSN at an FO, most of whom did so within 1 week of entering the country.

Based on our discussions with SSA, State and DHS personnel, we believe the following
factors may contribute to immigrants applying for SSNs through EAE and at FOs.
Specifically, immigrants

•     may not fully understand SSA’s SSN assignment process because the Agency’s
      instructional handout (provided to the immigrant at a foreign service post) is not
      always in the individual’s native language;11

•     may forget they applied for an SSN at a foreign service post because they may have
      up to 6 months to travel to the United States after visa approval;

•     do not always receive accurate information from DHS regarding SSN attainment;12

•     visit FOs because they believe they can obtain an SSN quicker; and

•     must visit an FO to obtain an SSN for their children who are under age 18, and while
      there, also apply for their own SSN again.

We believe EAE’s efficiency and effectiveness is diminished when immigrants apply for
SSNs through EAE and at FOs. This not only increases FO workload and
administrative costs, it impacts SSN integrity because of the potential for multiple SSN
assignment. We recognize that SSA depends on assistance and support from State
and DHS in assigning SSNs to immigrants. Nevertheless, we believe SSA, as the
agency ultimately responsible for SSN assignment, has a duty to ensure State and DHS
correctly educate immigrants on the steps they must take to obtain an SSN.




10
  We determined that 15 (about 56 percent) of the 27 immigrants with multiple SSNs visited an FO within
1 week of entering the United States as an LAPR.
11
     The American Consulate in Ciudad Juarez, Mexico, translates SSA’s handout into Spanish.
12
  At one U.S. port of entry we visited, DHS provided all immigrants with an informational paper that
instructed them to use their immigration document to apply for an SSN card. In November 2004, SSA
contacted this port of entry and it began distributing the correct hand out. Additionally, FO staff told us
that some DHS personnel instruct immigrants to immediately visit SSA, which may include those who
applied for an SSN through EAE.
Page 6 - The Commissioner


DATA INCOMPATIBILITY ISSUES PREVENTED PROCESSING OF SOME EAE
RECORDS

MES could not process 27,383 (26 percent) of the 103,383 EAE records SSA received
in FY 2004 because of data incompatibility issues among the Agency, State and DHS.
As such, immigrants had to visit an FO to obtain an SSN, which defeats the purpose of
EAE. This increases FO workload and Agency administrative costs. Had MES
processed these EAE applications, we estimate the Agency could have saved
approximately $657,000 in FY 2004, assuming all immigrants later obtained an SSN
through an FO.13 If data incompatibility issues prevent MES from processing EAE
records, and all variables remain constant, we estimate SSA may incur about
$3.3 million in additional costs over the next 5 years.14 Resolution of the data
incompatibility issue is particularly important given SSA’s interest in expanding EAE to
other classes of noncitizens.

When EAE records have invalid information in one or more data fields, MES places
them on a “pending file.” Our analysis of 50 pending EAE records disclosed that
48 (96 percent) failed to process because characters in the applicant’s address field
were not compatible with MES data requirements. These invalid characters were
primarily commas, periods, colons, semicolons, ampersands and improperly placed
blank spaces. For example, MES could not process an EAE record that included a
period after “Street” (St.) in the address field.

SSA personnel acknowledged that data incompatibility problems prevent processing of
some EAE records. SSA personnel explained that they provided State and DHS with
specific data requirements, but the other agencies’ data systems continue to allow
characters MES will not accept. Although SSA no longer holds regular discussions with
State and DHS, SSA personnel told us they still communicate when problems occur.

We believe EAE’s efficiency and effectiveness is reduced when one of every four EAE
applicants cannot obtain an SSN unless they visit an FO. As such, we believe SSA
needs to continue to work with State and DHS to resolve data incompatibility issues.
Until SSA resolves these issues, the Agency should consider contacting EAE applicants
whose SSN applications could not be processed. The Agency relies on EAE applicants
to eventually visit or call an SSA FO to inquire about his/her application. If the
immigrant visits an FO to apply for an SSN and system edits identify the pending
record, MES will process the EAE transaction and remove it from the pending file.15

13
  We based this estimate on the number of EAE records MES could not process in FY 2004
(27,383), using SSA’s FY 2004 unit cost to process an SSN application at an FO ($24). Therefore, we
calculated our estimate as follows: 27,383 X $24 = $657,192.
14
   We based this estimate on the number of EAE applications MES could not process in FY 2004 and
projected it over the next 5 years, using the FY 2004 unit costs. Therefore, we calculated our estimate as
follows: $657,192 X 5 years = $3,285,960.
15
     Pending EAE applications remain in MES up to 365 days before dropping off SSA’s system.
Page 7 - The Commissioner


Given SSA’s commitment to world-class service, we believe the Agency should attempt
to contact SSN applicants to resolve EAE discrepancies.

EAE RECORDS DID NOT ALWAYS INCLUDE IMMIGRANTS’ COMPLETE NAMES
OR SSNs

Although SSA allows initials and abbreviated names on SSN cards, Agency policy
instructs FO personnel to include individuals’ full names in the application field (“Full
Name at Birth” or “Other Names Used”).16 We are concerned that EAE records State
and DHS transmit to SSA do not always include immigrants’ complete names or
previously assigned SSNs, which are important identifying information for SSA records.
Our analysis of EAE records disclosed instances in which State did not transmit
immigrants’ prior names as shown on the visa application. State also transmitted some
EAE records with abbreviated names or initials. For example, we identified numerous
instances in which State used the first name “Ma” instead of “Maria.” Because of the
limited information on these records, Agency edits may not always identify that a prior
SSN exists.

Additionally, we identified instances in which State did not include immigrants’
previously assigned SSNs on EAE records it forwarded to SSA, even though the
immigrants included the SSNs on their visa applications. In all of these instances, SSA
assigned the immigrants a second original SSN instead of a replacement card.

EAE’s efficiency and effectiveness is diminished when SSA does not receive
immigrants’ complete names or previously assigned SSNs. EAE records with complete
identifying information decrease the likelihood that SSA will assign multiple SSNs.
Accordingly, we believe SSA must take a proactive role in addressing name
standardization issues.

CONCLUSION AND RECOMMENDATIONS
We believe EAE has the potential to assist the Agency in preventing fraud and
improving customer service. We recognize SSA must rely on assistance and support
from State and DHS. However, weaknesses exist in controls and operations we believe
SSA needs to address to enhance the efficiency and effectiveness of the EAE process.
This is particularly important given SSA’s interest in expanding EAE to other classes of
noncitizens. Ultimately, the success of SSA’s efforts will depend on the priority it places
on improving existing EAE controls and operations and how successful it is in obtaining
assistance and support from State and DHS.




16
     POMS, section RM 00202.105.
Page 8 - The Commissioner


Accordingly, we recommend that SSA:

1. Enhance its duplicate record and previously assigned SSN edits to provide greater
   protection against multiple SSN assignment.

2. Reemphasize to FO personnel the importance of appropriate EM resolution to avoid
   multiple SSN assignment.

3. Cross-reference multiple SSNs the Agency assigned to immigrants we identified
   during our review. We will provide further details regarding these individuals under
   separate cover.

4. Continue to work with State and DHS to provide clear instructions to immigrants on
   SSN attainment.

5. Consider providing its handout regarding SSN attainment to immigrants in their
   native languages.

6. Continue to work with State and DHS to resolve data incompatibility issues,
   including name standardization.

7. Until SSA resolves its data compatibility problems, consider contacting EAE
   applicants to resolve pending records.

AGENCY COMMENTS AND OIG RESPONSE
We believe SSA’s response and planned actions adequately address
Recommendations 1 through 6. However, we believe SSA‘s response to
Recommendation 7 does not effectively address our concern that one of every four EAE
applicants cannot obtain an SSN unless they visit an FO, which defeats the purpose of
EAE. Given SSA’s commitment to world-class service, we continue to believe the
Agency should use available information to attempt to contact EAE applicants to resolve
pending records.

Regarding SSA’s response to Recommendation 7, we acknowledge that SSA may not
always have complete or correct address information on pending EAE applications.
However, we believe most EAE pending applications have adequate address
information because SSA would have mailed an SSN card to the same address had
MES processed the application. As stated in the report, MES failed to process EAE
records primarily because of minor data incompatibility problems, such as commas,
periods, colons, and other improperly placed blank spaces. As such, we believe SSA
could review most of these pending records and generally determine it has adequate
address information. We encourage SSA to reconsider its response to
Recommendation 7.
Page 9 - The Commissioner


SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix D. Additionally,
because of State’s significant role in the EAE process, we provided that agency a copy
of the draft report for comments. State’s comments are included in Appendix E.

OTHER MATTER

FO Personnel Did Not Always Comply with Enumeration Policies and Procedures

During our FO visits, we determined that SSA personnel were generally complying with
EAE policy,17 but they did not always comply with other Agency enumeration policies.
For example, we observed SSA personnel

•     not using black lights when reviewing DHS evidentiary documents,18

•     inputting applicant names in MES that differed from the names shown on identity
      documents presented, and19

•     enumerating all family members at one time.20

Because we previously reported on FO noncompliance with enumeration policies and
procedures, we are not making any recommendations related to the observances of
noncompliance detected during this review.21




                                                         S
                                                         Patrick P. O’Carroll, Jr.




17
   POMS, section RM 00202.315, informs SSA staff of the EAE process and provides instructions on how
to process applications for recently admitted LAPRs who are over 18 and applying for an original SSN.
18
     POMS, section RM 00203.040.
19
     POMS, section RM 00202.105.
20
     POMS, section RM 00204.270, instructs FO staff to process family member’s applications 2 days apart.
21
  Field Offices’ Compliance with Policies and Procedures When Processing Noncitizen Social Security
Number Applications (A-08-04-14005, August 2004); Compliance with Policies and Procedures When
Processing Noncitizen Social Security Number Applications at Foreign Service Posts (A-08-04-14060,
August 2004); and Brooklyn Social Security Card Center’s Compliance with Policies and Procedures
When Processing Noncitizen Social Security Number Applications (A-08-04-14061, August 2004).
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Flowcharts of the Enumeration at Entry Process

APPENDIX C – Scope, Methodology and Sample Appraisal

APPENDIX D – Agency Comments

APPENDIX E – Department of State Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
DS-230   Application for Immigrant Visa and Alien Registration
DHS      Department of Homeland Security
State    Department of State
EAE      Enumeration at Entry
EM       Enumeration Feedback Message
FO       Field Office
FY       Fiscal Year
LAPR     Lawfully Admitted as Permanent Resident
MES      Modernized Enumeration System
POMS     Program Operations Manual System
SS-5     Application for a Social Security Card
SSA      Social Security Administration
SSN      Social Security Number
                                                                                               Appendix B

Flowcharts of the Enumeration at Entry Process
Flowchart 1. Departments of State (State) and Homeland Security (DHS) Roles in the Social
Security Administration’s (SSA) Enumeration at Entry (EAE) Process



 Immigration petition                                              Noncitizen visits U.S. foreign service
 for noncitizen filed                                              post (FSP) to submit visa application.
 with DHS.
                                                                     Do you want         Yes
                                                                     SSA to assign
                                DHS notifies the                     you an SSN?          No
                                noncitizen that his
                                or her immigration
                                petition was accepted.

                                                               The FSP interviews the noncitizen,
           State transmits electronic data to DHS.             approves the visa and fulfills
                                                               SSA requirements for issuing a
                                                               Social Security number (SSN).




               Immigrant may                                   The embassy or
               have up to                                      consulate gives
               6 months to                                     the noncitizen a
               travel to the                                   handout of
               United States.                                  SSA instructions.




            At U.S. port of entry, DHS inspects
            visa, passport and other documents,                   DHS sends electronic data to
            and lawfully admits individual as                     SSA for SSN assignment.
            permanent resident (LAPR).




                LEGEND: Broken lines represent electronic data transfer.




                                                         B-1
Flowchart 2. SSA’s SSN Assignment via EAE



 DHS transmits the EAE                     Modernized Enumeration              SSA issues original or
 DataShare file to SSA after it            System (MES) accepts                replacement SSN card.
 admits the LAPR.                          EAE data.




                                           EAE data excepts                 Immigrant visits SSA within
 Data error -                              to MES pending file.             365 days - Agency personnel
 SSA systems                                                                correct discrepancy.
 drop EAE
 record –
 SSA does
 not issue
 SSN card.




        The immigrant                                      Immigrant doesn't visit SSA within 365
        must complete                                     days or Field Office personnel do not
        an SS-5                                           correct discrepancy - no SSN card
        application at an                                 issued.
        SSA Field Office
        to obtain an SSN.



                 LEGEND: Broken lines represent electronic data transfer.




                                                    B-2
                                                                    Appendix C

Scope, Methodology and Sample Appraisal
To accomplish our objective, we reviewed the Social Security Administration’s (SSA)
policies and procedures for assigning Social Security numbers (SSN) to lawfully
admitted permanent residents (LAPR). We held discussions with SSA personnel
responsible for enumeration policy and procedures, systems, and operations. We
visited U.S. Consulates in Montreal, Canada, and Ciudad Juarez, Mexico. A
representative from the Department of State’s Office of Inspector General coordinated
and accompanied us on our visit to Mexico. We also visited five Department of
Homeland Security (DHS) ports of entry and six SSA field offices (FO) in New York,
New Jersey, Texas, and California. We selected the DHS locations based on the
volume of immigrants and nearby SSA FOs with a high average of Enumeration at Entry
(EAE) pending and/or processed records.

We interviewed personnel at each of the Consulates and ports of entry to obtain an
understanding of their role in SSA’s EAE process. In addition, we observed Consulate
representatives interviewing applicants and processing immigrants’ visas. We also
observed DHS personnel interviewing intended immigrants and admitting LAPRs.

During our site visits to SSA FOs, we interviewed staff to determine their knowledge of
the EAE process. We also observed FO personnel interviewing LAPRs and processing
immigrant SSN applications. We obtained data from each office regarding the number
of EAE applications pending in SSA’s Modernized Enumeration System (MES) either as
a “not complete or investigate.” We selected 50 EAE pending records (with status of
“not complete”) to determine why MES was unable to process them. We determined
whether EAE applicants also visited an FO and applied again for an SSN. For those
applicants who visited an FO, we determined how quickly the individual visited the FO
after admission into the United States as an LAPR.

We also obtained SSA’s MES transaction history file for noncitizens who obtained an
original SSN via the EAE process from December 2003 through February 2004. From
our population of 10,752 EAE records, we reviewed first names for completeness, and
we randomly selected a sample of 250 records to determine whether SSA subsequently
assigned a second SSN to those individuals.

The SSA entities reviewed were the Office of the Deputy Commissioner for Operations,
Office of the Deputy Commissioner for Disability and Income Security Programs, and
Office of the Deputy Commissioner for Systems. We relied primarily on MES to
complete our review and determined the MES data used in the report were sufficiently
reliable given the audit objective and use of the data. We conducted our work from
March through November 2004 in accordance with generally accepted government
auditing standards.


                                          C-1
The following table shows our sample size, results, and appraisal.

Table 1: Sample Results and Projection on Multiple SSNs Identified

                         SAMPLE ATTRIBUTE APPRAISAL
 Total Population of Original SSNs SSA Assigned to Immigrants via the
 EAE Process from December 2003 through February 2004                        10,752
 Sample Size                                                                    250
 Number of Instances in Sample Where SSA Assigned Multiple SSNs to
 Immigrants                                                                      27
 Estimate of Instances in Population Where SSA Assigned Multiple
 SSNs to Immigrants                                                           1,161
 Projection—Lower Limit                                                         834
 Projection—Upper Limit                                                       1,564
 Projection made at the 90-percent confidence level.

Estimate 1: Estimation of Multiple SSN Cases Where System Edits Did Not
Identify Duplicate Applications on Same Date or Previously Assigned SSNs

We identified 27 (about 11 percent) multiple SSNs from our review of 250 sample
cases. Of the 27 multiple SSN cases, we determined 21 of these occurred because
system edits did not identify duplicate applications on the same date or previously
assigned SSNs. Based on these results, we estimate about 903 (about 78 percent) of
the projected 1,161 multiple SSNs are due to system edits not identifying duplicate
applications on same date or previously assigned SSNs. We calculated our estimate as
follows: 21 ÷ 27 =.77777 X 1,161 = 902.99 (903).

Estimate 2: Estimation of Multiple SSN Cases Where FO Personnel Improperly
Resolved Enumeration Feedback Messages

We identified 27 (about 11 percent) multiple SSNs from our review of 250 sample
cases. Of the 27 multiple SSN cases, we determined 6 occurred because FO
personnel improperly resolved enumeration feedback messages. Based on these
results, we estimate about 258 (about 22 percent) of the projected 1,161 multiple SSNs
are due to FO personnel improperly resolving EMs. We calculated our estimate as
follows: 6 ÷ 27 =.22222 X 1,161 = 257.99 (258).




                                          C-2
Estimate 3: Estimation of Multiple SSN Cases Where Immigrants Visited an FO
Within 1 Week of Entering the United States as an LAPR

We identified 27 (about 11 percent) multiple SSNs from our review of 250 sample
cases. Of the 27 multiple SSN cases, we determined 15 belonged to immigrants who
visited an SSA FO within 1 week of entering the United States as an LAPR. Based on
these results, we estimate about 645 (about 56 percent) of the projected 1,161 multiple
SSNs belong to immigrants who visited an FO within 1 week of entering the United
States as an LAPR. We calculated our estimate as follows: 15 ÷ 27 =.55555 X 1,161 =
644.99 (645).




                                          C-3
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                      34065-24-1219


Date:      February 22, 2005                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Assessment of the Enumeration at Entry
           Process" (A-08-04-14093)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT
REPORT “ASSESSMENT OF THE ENUMERATION AT ENTRY PROCESS”
(A-08-04-14093)


Thank you for the opportunity to review and comment on the subject draft report. We
agree that the Enumeration at Entry (EAE) process has the potential to assist in
strengthening Social Security number (SSN) integrity and will provide high quality
service to SSA’s immigrant population. We also appreciate your acknowledgement that
the success, outside of our efforts to improve the EAE process, depends on the assistance
and support from the Department of State (State) and the Department of Homeland
Security (DHS).

As you are aware, we also conducted a review of the EAE process and the preliminary
results of that review, which we shared with you on February 4, 2005, are consistent with
your findings in that the EAE is more susceptible to multiple SSN issuances than the
regular enumeration process. The specific recommendations being made based on our
study are currently undergoing intercomponent review and are not yet final. We will use
the data available from your review, as well as our study, to serve as the basis for making
further enhancements to the EAE process.

Below are our responses to your specific recommendations as well as some technical
comments that were developed to enhance the accuracy of the report.

Recommendation 1

The Social Security Administration (SSA) should enhance its duplicate record and
previously assigned SSN edits to provide greater protection against multiple SSN
assignment.

Response

We agree. We are forming a workgroup to look into changes to improve enumeration
systems screening and will address this recommendation as part of that workgroup’s
efforts. However, we also need to be cautious as unintended consequences can be
produced by either tightening or loosening matching routines.

Recommendation 2

SSA should reemphasize to Field Office (FO) personnel the importance of appropriate
Enumeration Feedback Message (EM) resolution to avoid multiple SSN assignment.




                                            D-2
Response

We agree. FO personnel must process EM messages promptly and accurately to avoid
the assignment of multiple SSNs. We will issue an Administrative Message (AM) with
reminders on resolving EM messages related to the EAE process. We expect to release
the AM in February 2005.

Recommendation 3

SSA should cross-reference multiple SSNs the Agency assigned to immigrants identified
during the review.

Response

We agree. We have taken action to cross-refer the multiple SSNs identified during the
review.

Recommendation 4

SSA should continue to work with State and DHS to provide clear instructions to
immigrants on SSN attainment.

Response

We agree. We will work with State and DHS to provide clear instructions to immigrants
on SSN attainment.

Recommendation 5

SSA should consider providing its handout regarding SSN attainment to immigrants in
their native languages.

Response

We agree. We will contact State to discuss the feasibility of providing such handouts.

Recommendation 6

SSA should continue to work with State and DHS to resolve data incompatibility issues,
including name standardization.

Response

We agree. We will contact State and DHS to discuss these data incompatibility issues
and explore ways to resolve them.




                                           D-3
Recommendation 7

Until SSA resolves its data compatibility problems, it should consider contacting EAE
applicants to resolve pending records.

Response

We disagree. We do not have complete or correct address information on pending EAE
applications, making contact with the applicants difficult or impossible.




                                          D-4
                               Appendix E

Department of State Comments
E-1
E-2
          Social Security Administration OIG Draft Report:
       “Assessment of the Enumeration at Entry (EAE) Process”
                           (A-08-04-14093)

                     Department of State Comments

General Observations: The report identifies important opportunities for
improving this data-sharing arrangement. The Department of State is fully
prepared to work closely with SSA and DHS to further refine the process
that has been in place since October 2002. We agree the program should be
strengthened prior to introducing additional data sharing for other visa
categories.

The SSA/OIG draft Report did not make specific recommendations for
State, but it points out some perceived weaknesses that we might address.

1. EAE records did not always include immigrants’ complete names or
SSNs.

Comment: The SSA/OIG draft report is concerned that EAE records State
and DHS transmit to SSA do not always include immigrants’ complete
names or previously assigned SSNs. The State data are the most accurate
and most up-to-date available to consular officers. Names are entered into
visa records exactly as they appear in the applicant’s passport.

2. State did not include immigrants’ previously assigned SSNs on EAE
records it forwarded to SSA, even though the immigrants included the
SSNs on their visa applications.

Comment: Officers will be encouraged to double-check the information
provided by the applicants to questions 33a and 33b on the IV application
form (DS-230). However, our analysis showed that most of the information
provided on the DS-230 is transmitted to the SSA by DHS, not DOS. It is
not clear how the information is processed at the DHS level before being
transmitted to SSA.




                                    E-3
3. SSA personnel explained that they provided State and DHS with
specific data requirements, but that those agencies’ data systems
continue to allow characters MES will not accept.

Comment: In any data-sharing regimen, Federal agencies may have
different formatting standards. Generally, it is the receiving agency that
must translate any differences so that its systems can effectively receive
another agency’s data. This is the most effective approach, rather than
asking the sending agency to makes itself aware of the intricacies of the
receiving agency’s database system. In other words, our view is that since
SSA is aware of this issue, it would be best for SSA to create and manage a
solution as part of its data quality assurance efforts.


S:\VO Special Assistant\2005-02 Taskers\2005-02 Notes, Memos\T0182
Comments on SSA OIG Report


Drafted:    CA/VO/I: Noubassem Namde (x3-2192) (02-23-2005)


Cleared:    CA/VO/I: MSardinas              -ok-
            CA/EX/CSD: DWilliams            -ok-
            CA/VO/F/P: KChristensen         -ok-
            CA/VO: DBean:                   -ok-
            CA/VO: TEdson                   -ok-
            CA/VO: JJacobs                  -ok-




                                    E-4
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kim Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

    Theresa Roberts, Senior Auditor

    Kenley Coward, Program Analyst

    Kimberly Beauchamp, Writer-Editor

    Rich Astor, Department of State, Office of Inspector General

    Robert Wurster, Department of State, Office of Inspector General

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-04-14093.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
